             OFFICE OF
             INSPECTOR
             GENERAL
             UNITED STATES POSTAL SERVICE




    Government Relations Operations

                     Audit Report




                                       September 23, 2011

Report Number FF-AR-11-014
                                                               September 23, 2011

                                              Government Relations Operations

                                                     Report Number FF-AR-11-014




IMPACT ON:
The Office of Government Relations and     Policy, establish procedures to gather
Public Policy (Government Relations)       workload statistics on all functions within
operations at U.S. Postal Service          Government Relations, periodically
Headquarters and district Consumer         monitor those statistics, make
and Industry Affairs offices.              appropriate adjustments to the
                                           organizational structure, and develop
WHY THE OIG DID THE AUDIT:                 written policies and procedures to guide
To determine whether Government            Government Relations operations. We
Relations operations were conducted        also recommended reviewing placement
efficiently and cost effectively.          of the Stamp Services organization to
                                           determine whether it is appropriately
WHAT THE OIG FOUND:                        aligned within the Postal Service based
Opportunities exist to improve the         on Stamp Services’ primary mission.
efficiency and cost effectiveness of
Government Relations operations by         WHAT MANAGEMENT SAID:
developing a comprehensive workload        Management agreed with findings and
tracking and analysis system and written   recommendations 1 and 2 and indicated
policies and procedures. While the         agreement with the intent of
Postal Service’s recent organizational     recommendation 3. Specifically,
redesign increased the Government          management plans to develop a system
Relations employee-to-supervisor ratio,    to capture workload data and prepare
we were unable to determine if it was      written procedures to guide Government
the optimal staffing level for the         Relations operations by March 31, 2012.
workload. In addition, we believe          Additionally, although they will keep
management should review Stamp             Stamp Services within Government
Services placement in Government           Relations, they plan to engage members
Relations to determine whether the         of the Citizens’ Stamp Advisory
current organizational placement is        Committee to enhance stamp revenue.
optimal. Furthermore, we determined
district Consumer and Industry Affairs’    AUDITORS’ COMMENTS:
workload does not duplicate or             The OIG considers management’s
supplement Government Relations            comments responsive to the
casework.                                  recommendations and corrective actions
                                           should resolve the issues identified in
WHAT THE OIG RECOMMENDED:                  the report.
We recommended the vice president,
Government Relations and Public            Link to review the entire report
September 23, 2011

MEMORANDUM FOR:            RONALD A. STROMAN
                           DEPUTY POSTMASTER GENERAL

                           MARIE THERESE DOMINGUEZ
                           VICE PRESIDENT
                           GOVERNMENT RELATIONS AND PUBLIC POLICY




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – Government Relations Operations
                           (Report Number FF-AR-11-014)

This report presents the results of our audit of the U.S. Postal Service’s Office of
Government Relations and Public Policy operations (Project Number 11BG015FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Juan Gonzalez, acting director,
Field Financial – West, or me at 703-248-2100.

Attachments

cc: Susan M. LaChance
    Corporate Audit and Response Management
                                                 TABLE OF CONTENTS


Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Workload Tracking Needs Improvement ............................................................................ 2

Development of Written Policies and Procedures .............................................................. 4

Stamp Services Placement Needs Review ........................................................................ 5

Other Matters ....................................................................................................................... 5

Recommendations .............................................................................................................. 7

Management’s Comments .................................................................................................. 7

Evaluation of Management’s Comments ............................................................................ 8

Appendix A: Additional Information..................................................................................... 9

   Background ...................................................................................................................... 9

   Objective, Scope, and Methodology ............................................................................. 10

   Prior Audit Coverage ..................................................................................................... 11

Appendix B: Management’s Comments ........................................................................... 12
Government Relations Operations                                                                      FF-AR-11-014



Introduction

This report presents the results of our audit of the U.S. Postal Service’s Office of
Government Relations and Public Policy (Government Relations) operations
(Project Number 11BG015FF000). This report responds to a request from
Representative Jo Ann Emerson, Chairwoman, House Appropriations Subcommittee on
Financial Services and General Government, to (1) review Government Relations
operations and the placement of the Stamp Services organization under Government
Relations and (2) determine whether district Consumer and Industry Affairs 1 (Consumer
Affairs) offices duplicate or supplement the activities of Government Relations
operations. Our objective was to evaluate Government Relations operations to
determine whether operations were conducted efficiently and cost effectively. The audit
addresses operational risk. See Appendix A for additional information about this audit.

The Postal Service’s Government Relations organization is the primary liaison to
government leaders and policy makers. Its duties include monitoring legislation and
other government rulemaking, informing legislative and executive branch officials of
developments within the Postal Service and responding to their inquiries, and briefing
management on government reaction to Postal Service policies. Stamp Services is also
part of Government Relations and is responsible for creating, producing, distributing,
and maintaining adequate quantities of postage stamps, stationery products, and
philatelic products for nationwide sales.

Consumer Affairs, an organization separate from Government Operations, is the liasion
between customers and the Postal Service. They respond to consumer questions,
comments, complaints, and inquiries; and occasionally respond to local congressional
inquiries on behalf of constituents and keep local congressional offices informed of
Postal Service initiatives in their district, such as facility closures affecting their
congressional district.

Conclusion

Opportunities exist for Government Relations to further improve efficiency and cost
effectiveness by developing a comprehensive workload tracking and analysis system
and developing written policies and procedures. These actions would assist
Government Relations in determining optimal staffing, providing consistency in the work
performed, setting standards for products and services, and acting as a training tool for
new or reassigned employees.

During our review, the Postal Service underwent a major organizational redesign. 2
While the redesign increased the overall Government Relations employee-to-supervisor

1
  Subsequent to the redesign, headquarters’ Consumer Advocate’s name changed to Consumer and Industry Affairs.
Additionaly, the current Postal Service redesign combines local district Consumer Affairs with the Business Service
Network, resulting in a new group named Consumer and Industry Contacts.
2
  The Postal Service announced an organizational redesign on March 25, 2011, and is currently downsizing. The
Postal Service will fully implement the redesign by September 2011, and the full extent of the changes to Government
Relations operations will be known at that time.
                                                          1
Government Relations Operations                                                FF-AR-11-014



ratio, Government Relations is unable to support whether they are optimally staffed
because they do not fully track much of the work that they do. In addition, we believe
management should consider placing Stamp Services in an organization with a focus on
revenue generation to maximize its revenue potential. Furthermore, we determined
Consumer Affairs’ workload in the districts addresses local consumer issues and does
not duplicate or supplement Government Relations casework.

Workload Tracking Needs Improvement

Government Relations does not have a comprehensive workload tracking and analysis
system; therefore, we were unable to determine whether operations were performed
effectively and efficiently and whether staffing levels appropriately matched the
workload. A comprehensive workload tracking and analysis system includes identifying
the amount of work assigned to a worker, documenting the time required to complete
the work, and aggregating the workload data to calculate the total amount of resources
required to complete a group of tasks.

Our review determined that Government Relations staff have a variety of documents to
track the work completed by the organization; however, they do not track the time
required to complete the work or aggregate the workload data. According to
management, in the past they performed more detailed workload tracking but decided it
was too time consuming to continue. Through discussions and documentation provided
by management, we were able to determine workload activities for fiscal year (FY)
2010. Specifically, we determined in FY 2010 that Government Relations personnel:

     Opened and closed 5,849 cases with written responses. 3

     Prepared a weekly status report to document meetings and notifications to congress.
      A review for a 4-week period ending February 25, 2011, showed personnel had
      118 meetings with congressional staff.

     Tracked the testimonies of Postal Service witnesses at six congressional hearings.

     Maintained a bill tracking database that contained more than 400 pieces of
      legislation with implications for the Postal Service.

     Developed annual economic impact statements for each state and congressional
      district.

     Maintained handouts and talking points developed to advance the Postal Service’s
      legislative agenda.




3
    Workload data obtained from the Document Imaging System.


                                                       2
Government Relations Operations                                                                          FF-AR-11-014




    Published a weekly competitive intelligence newsletter. 4

    Responded to numerous phone and e-mail inquiries.

Our review of staffing disclosed that Government Relations and Public Policy is
authorized 241 positions and is divided into two major components: Government
Relations operations and Stamp Services. The Government Relations operations
component has 47 positions and includes three areas of responsibility: Government
Liaison, Legislative Policy and Strategy Development, and Public Policy Planning and
Analysis. The Stamp Services component has 194 5 positions and includes four areas of
responsibility: Stamp Development, Stamp Products and Exhibitions, Stamp
Manufacturing, and Stamp Fulfillment Services. See Appendix A for more details.

As a part of the Postal Service’s March 2011 organizational redesign, the
employee-to-supervisor ratio for Government Relations operations increased while the
ratio for Stamp Services decreased. However, the overall Government Relations
employee-to-supervisor ratio increased as the number of authorized personnel
decreased. See Table 1 for more details.

                               Table 1: Employee-to-Supervisor Ratio

                      Government Relations and Public Policy
      Supervisory Ratio Comparison Before and After the March 2011 Redesign
                              Government Relations
                                   Operations                       Stamp Services                    Total
                               Before       After                  Before     After              Before    After
       Authorized                 47                 41              50 6            39            97           80
     Executive and
     Administrative
       Schedule
       Personnel
       Authorized                 12                  6               5               5            17           11
     Management
    Band and Postal
    Career Executive
        Service
      Employee to                 3.9               6.8              10              7.8           5.7         7.3
    Supervisor Ratio
Source: Postal Service Organizational Charts



4
  The weekly competitive intelligence newsletter provides information on industry news, including international postal
services, products, and technology.
5
  This includes both bargaining and non-bargaining employees.
6
  Stamp Services also includes 150 authorized bargaining unit employees; the number of authorized bargaining unit
employees did not change as part of March 2011 organizational redesign.


                                                           3
Government Relations Operations                                                                        FF-AR-11-014



According to our research, the change in the Government Relations and Stamp
Services employee-to-supervisor ratio resulting from the March 2011 redesign is more
in line with standard supervisory ratios for complex, variable work. 7 However, without
comprehensive workload tracking, management cannot effectively determine whether
the staffing levels are optimal for the workload.

Our review of business best practices noted that comprehensive workload tracking and
analysis is a useful tool to help supervisors effectively manage their responsibilities.
Workload tracking provides empirical data to help prioritize tasks, identify process
inefficiencies, optimize staffing, assign workload equitably, measure performance, and
determine budget requirements.

As a result of the U.S. Postal Service Office of Inspector General (OIG) review and the
recent redesign, management stated that they saw the value in enhanced workload
tracking and have begun developing additional workload tracking mechanisms.

Development of Written Policies and Procedures

Government Relations does not maintain written policies and procedures for its
operations. Our research indicated that an effective management control system 8
includes development of policies, procedures, and practices that ensure management
can achieve their objectives. Management stated that each congressional inquiry is
unique; therefore, a standard written policy would not be beneficial. However, without
written policies and procedures, Government Relations cannot ensure that work
performed is consistent and meets standards established for its products and services,
and cannot maintain an effective management control system.

Although we agree that inquiries may be unique, we believe congressional responses
generally require similar procedures, such as reviewing the complaint, researching
related information, and drafting a response. Additionally, other types of work
Government Relations performs, such as weekly summary reports on legislative
activities and annual economic impact statements, are prepared routinely and could
benefit from written procedures.

The development of written policies and procedures will facilitate Government Relations’
transition to its new structure, help focus the work to the new core functions of the
organization, and set standards for products and services. In addition, management can
use these policies and procedures as a training tool for employees who join
Government Relations and as a reference source for current employees on their roles
and how to perform their assigned tasks. Furthermore, written policies and procedures

7
  Span of Control, at http://www.businessdictionary.com/definition/span-of-control.html, is defined as: “The number of
subordinates that a manager or supervisor can directly control. This number varies with the type of work: complex,
variable work reduces it to six, whereas routine, fixed work increases it to 20 or more.”
8
  In 1992, the Committee of Sponsoring Organizations of the Treadway Commission issued a report on internal
control framework. This framework has been widely accepted as providing a sound basis for establishing internal
control systems and determining their effectiveness. One of the five key elements of the framework is development of
policies and procedures.


                                                          4
Government Relations Operations                                               FF-AR-11-014



could assist management in assessing performance and establishing accountability.
Written policies and procedures would allow Government Relations to be more
productive and allow management to focus more time on strategic development and
less on day-to-day operations.

Stamp Services Placement Needs Review

Placement of Stamp Services in Government Relations needs further review. Available
information indicates there is little correlation between the overarching duties and
responsibilities of Stamp Services and Government Relations. 9 Postal Service
personnel stated that Stamp Services tends to focus on the interests of the
organizational group to which it is assigned. For example, while in Government
Relations, Stamp Services’ focus has been on governmental and congressional stamp
requests, since the group is responsible for acting as the liaison to government leaders
and policy makers on postal policy matters rather than revenue generation. Some
Postal Service managers stated that the Stamp Services organization can be viewed
either as a services provider or a revenue generator. Management noted that if the
Postal Service considers Stamp Services to be a revenue generator, then placement
within a revenue-generating organization would be most appropriate.

During the recent redesign, Government Relations management informed us they
considered the placement of Stamp Services and determined the current placement is
appropriate because of the interest stamps receive from congress and the
cross-organizational collaboration required to develop a stamp from concept to actual
product. However, since Government Relations’ mission does not address revenue
generation, the value of Stamp Services to the Postal Service’s financial operations may
be limited.

Considering the financial situation of the Postal Service and the cross-organizational
collaboration needed to develop a stamp, this may be the appropriate time to review
Stamp Services’ placement in Government Relations, specifically its potential to
generate revenue. The most effective placement of Stamp Services should allow for
creation of a varied stamp collection, increased public interest, an adequate stamp
supply, and revenue growth.

Other Matters

We reviewed the possibility of duplicative activities between Government Relations and
Consumer Affairs and determined that they are two separate entities and do not
duplicate or supplement each other’s work. Government Relations is staffed only at the
headquarters level and is the primary liaison to government leaders and policy makers
on Postal Service policy and national issues. Consumer Affairs is staffed at the
headquarters and the local level and does not address policy or issues of national
concern. Postal Service policy authorizes local level managers to respond to


9
    See Appendix A for responsibilities of both organizations.


                                                             5
Government Relations Operations                                                                          FF-AR-11-014



governmental inquiries related to customer service matters; however, they are to
forward policy 10 matters to Government Relations at Postal Service Headquarters. 11

Consumer Affairs’ primary mission is to address customer service complaints, including
inquiries from local consumers and local congressional representatives’ offices on
behalf of their constituents. For example, customers may contact the local Consumer
Affairs office themselves or may contact their congressional representative on service
matters such as late mail delivery or missing packages. Inquiries received from
congressional representatives on behalf of their constituents represent a very small
portion of Consumer Affairs’ workload. In FY 2011, 12 Consumer Affairs handled
1.8 million cases, 1,685 of which (less than 1 percent) were from congressional
representatives. See Table 2 for more details.

                                 Table 2: Consumer Affairs Workload

                                    Consumer Affairs Case Sources
                    Case Source                                              Number of Cases
                    1-800-ASK-USPS                                                 1,388,861
                    Claims                                                              8,170
                    Letter                                                              6,015
                    Letter – Postmaster General                                         5,100
                    Letter – Postmaster General Compliment                                226
                    Letter – Senate/Congressional                                       1,685
                    OIG                                                                 2,919
                    Political Mail Complaints                                              34
                    Publication Watch - Daily                                             337
                    Publication Watch - Monthly                                           178
                    Publication Watch - Weekly                                          1,173
                    Stamps                                                                360
                    Telephone                                                         44,939
                    USPS.com/Email                                                   315,998
                    Walk-in                                                             2,877
                    Total                                                          1,778,872
                   Source: Postal Service eCustomerCare system

We attempted to obtain comprehensive data on the types of inquiries included in the
1,685 congressional inquiries and 44,939 telephone inquiries received by district
Consumer Affairs offices. However, the types of inquiries were not available at a
national level; rather, the information was stored in manual logs at each district
Consumer Affairs office. Consequently, we judgmentally selected four 13 district
Consumer Affairs’ customer service contact logs to review the types of inquiries
provided. We confirmed the types of congressional inquiries provided were for local

10
   Policy matters include, but are not limited to, rate making, mail classification, contracting and procurement, real
estate, arbitration, interpreting collective bargaining agreements, appointments, promotions, and personnel policies.
11
   Administrative Support Manual 13, Section 338.33, July 1999, updated with Postal Bulletin revisions through
January 2011.
12
   FY 2011 data from eCustomer Care for the period October 1, 2010, to May 4, 2011.
13
   Reviewed customer service logs at the Bay-Valley, San Francisco, Dallas, and Forth Worth District Consumer
Affairs offices.


                                                           6
Government Relations Operations                                                 FF-AR-11-014



customer service matters, such as no mail delivery, change of address, and appearance
of facilities.

Based on our limited review of the types of congressional inquiries district Consumer
Affairs offices receive, the small percentage of customer service complaints sent to
congressional representatives, and the differences noted between Government
Relations’ national focus and district Consumer Affairs’ local focus, we concluded that
district Consumer Affairs offices do not duplicate or supplement Government Relations
work.

Recommendations

We recommend the vice president, Government Relations and Public Policy:

1. Establish procedures to gather workload statistics on all functions within the Office of
   Government Relations and Public Policy, periodically monitor those statistics, and
   make appropriate adjustments to the organizational structure, as needed.

2. Develop written policies and procedures to guide operations within the Office of
   Government Relations and Public Policy.

We recommend the deputy postmaster general, in consultation with the vice president,
Government Relations and Public Policy:

3. Review placement of the Stamp Services organization within the Office of
   Government Relations and Public Policy to determine whether it is properly aligned
   within the Postal Service based on Stamp Services’ primary mission.

Management’s Comments

Management agreed with findings and recommendations 1 and 2 in this report . For
recommendation 3, management indicated agreement with the recommendation’s intent
of looking for ways to generate additional revenue in Stamp Services and suggested an
alternate action.

Regarding recommendation 1, management agreed to develop a system by March 31,
2012, to gather additional data about the workload attributable to Government Relations
staff.

Regarding recommendation 2, management agreed to develop written procedures by
March 31, 2012, to guide operations for the three components of Government
Relations.

Regarding recommendation 3, management agreed they can take additional steps to
enhance the maximum revenue potential of stamps. Management stated that to
enhance stamp revenue they plan to engage the marketing talents of members of the



                                             7
Government Relations Operations                                             FF-AR-11-014



Citizens’ Stamp Advisory Committee (CSAC), a committee tasked with evaluating the
merits of all stamp proposals. Further, management stated they considered relocating
Stamp Services to the Marketing department during the recent organizational redesign
and determined that Stamp Services’ revenue-generating goals could be met by
retaining the department within the Government Relations organization. Management
considered the recommendation completed.

See Appendix B for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. However, since
management plans to engage members of the CSAC to enhance stamp revenue, we do
not consider recommendation 3 closed. We will keep the recommendation open and
assess the process for enhancing stamp revenue using the CSAC members upon
implementation.

The OIG considers all the recommendations significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           8
Government Relations Operations                                                 FF-AR-11-014



                                Appendix A: Additional Information

Background

The vice president of Government Relations and Public Policy is responsible for
Government Relations operations and Stamp Services. During the March 2011
redesign, the number of Government Relations and Public Policy authorized positions
decreased from 264 to 241 at headquarters. Government Relations operations’ duties
include:

      Monitoring legislation and other government rule making and advising management
       on the potential impacts of and corporate positions on these actions.

      Keeping legislative and executive branch officials informed of developments within
       the Postal Service and responding to their inquiries.

      Advising management about how Postal Service decisions might affect other
       government entities.

      Briefing management on government reaction to Postal Service policies and
       developments.

Stamp Services’ responsibility has been to create, produce, distribute, and maintain
adequate quantities of postage stamps, stationery products, and philatelic products for
nationwide sales. In FY 2010, Stamp Services oversaw:

      Issuance of 34 stamps with 84 designs.

      Creation of 41 stamps with 98 designs.

      The manufacture of approximately 25 billion stamps, 265 million envelopes, and
       51 million postal cards.

Stamp Services has been located in three functional areas within the Postal Service
since FY 2000. According to management, Stamp Services was in the Marketing
organization prior to 2000, then moved to Corporate Communications around FYs 2000
to 2001. In FY 2002, Stamp Services became part of Government Relations. The exact
reason for the movement of Stamp Services is not known.

Separate from Government Relations and Public Policy, the Postal Service also
maintains an organization called Consumer and Industry Affairs 14 which is responsible
for:

      Addressing customer inquiries, questions, comments and complaints, including
       responding to local congressional inquiries on behalf of constituents.
14
     The name changed from Consumer Advocate in January 2011.


                                                      9
Government Relations Operations                                                   FF-AR-11-014




      Keeping local congressional offices informed of Postal Service initiatives, such as
       facility closures affecting their congressional districts.

      Setting the strategic direction for field consumer affairs operations.

      Providing an indicator of customer satisfaction to management.

      Guiding Postal Service managers on improving operating and service performance.

      Channeling information from the Postal Service to the customer regarding policy and
       procedures.

During the March 2011 redesign, the number of Consumer Affairs authorized positions
decreased from 167 15 to 72 EAS positions at headquarters. Additionally, the current
Postal Service redesign combines local district Consumer Affairs with the Business
Service Network, resulting in a new group called Consumer and Industry Contacts.
There are 288 Consumer Affairs clerks 16 located in the 67 Postal Service districts who
report to district management. Their primary responsibility is to address customer
inquires at the local level.

Objective, Scope, and Methodology

The objective of our audit was to evaluate Government Relations operations to
determine whether they are conducted efficiently and cost effectively. To accomplish
our objective we:

      Interviewed Government Relations personnel at Postal Service Headquarters and
       the Stamp Fulfillment Center in Kansas City, KS; and Consumer Affairs personnel at
       Postal Service Headquarters, area, and district offices.

      Obtained and reviewed workload data for FYs 2008 through 2011 in Government
       Relations operations.

      Obtained and reviewed workload data for FY 2011 in Consumer Affairs.

      Evaluated operating procedures and staffing levels.

      Researched generally accepted employee-to-supervisor ratios.

      Researched the benefits of maintaining written policies and procedures.

      Hosted a weblog related to Government Relations operations.


15
     Consumer Advocate’s 167 authorized positions included 118 vacancies.
16
     Number of clerks on the rolls as of March 18, 2011.


                                                         10
Government Relations Operations                                                  FF-AR-11-014



   Benchmarked with a large national retailer and two other government agencies to
    ascertain the organizational structure of their government relations departments, if
    any.

We conducted this performance audit from February through September 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 10, 2011, and included their
comments where appropriate.

We assessed the reliability of eCustomer Care System data and the Document Imaging
System data by judgmentally comparing system data to source documentation. We
determined that data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                             11
Government Relations Operations                               FF-AR-11-014



                          Appendix B: Management’s Comments




                                         12
Government Relations Operations        FF-AR-11-014




                                  13
Government Relations Operations        FF-AR-11-014




                                  14
